Email: tcoates@gmsr.com

May 28, 2021
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re:

Goffin v. Ashcraft
U.S. Supreme Court Case No. 20-1362

Dear Mr. Harris:
The petition for writ of certiorari in this matter was filed on March 15,
2021, and subsequently docketed with a specified response date of April 29,
2021. Respondent filed a waiver of response on April 6, 2021, and on May 12,
2021, the Court requested that a response be filed. Respondent’s response is
presently due June 11, 2021.
Respondent has not previously sought an extension, and pursuant to
Supreme Court Rule 30.4, Respondent respectfully requests a 30-day
extension of time to file his response up to and including July 12, 2021, as
July 11, 2021 falls on a Sunday.
This extension is necessary because undersigned counsel requires more
time to review the record in this matter and respond to the petition. Counsel
is filing an amicus curiae brief in a Ninth Circuit expedited preliminary
injunction appeal with a due date of June 10, 2021. (LA Alliance for Human
Rights, et al. v. County of Los Angeles, et al., Case No. 21-55395.) Since our
firm is still working remotely, preparing and filing two substantive appellate
pleadings on the same timeline is extremely difficult, and the additional time
is necessary to allow counsel to prepare a response that will aid the Court in

The Honorable Scott S. Harris
Supreme Court of the United States
Re: Goffin v. Ashcraft
May 28, 2021
Page 2
considering the petition. Counsel for petitioner has graciously consented to
the extension of time.
Respectfully submitted,
Timothy T. Coates
Counsel of Record
Greines, Martin, Stein & Richland LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, California 90036
tcoates@gmsr.com
Jenna Allison Adams
Arkansas Municipal League
Post Office Box 38
North Little Rock, Arkansas 72115
jenadams@arml.org
By:

s/ Timothy T. Coates

Counsel for Respondent ROBBIE ASHCRAFT
TTC:plh
cc: Daniel S. Harawa, Esq., Counsel for Petitioner

